HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in the District of Columbia and
Maryland for July 1, 2005 Through June 30, 2006 - The District of Columbia
Department of Health," (A-03-07-00214)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid
Payments for Services Provided to Beneficiaries With Concurrent Eligibility in
the District of Columbia and Maryland for July 1, 2005 Through June 30, 2006
- The District of Columbia Department of Health," (A-03-07-00214)
April 30, 2008
Complete
Text of Report is available in PDF format (368 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For
the period from July 1, 2005, through June 30, 2006, we estimated
that the State agency paid: $1,902,080 (Federal share $1,331,456) for Medicaid
services provided to beneficiaries who should not have been eligible due to
their Medicaid eligibility/residence in Maryland and $3,944,006 (Federal share
$2,760,805) for Medicaid services provided to beneficiaries whose residence
could not be determined from the information in the State agencys and Maryland
Medicaid agencys case files.  Both the District of
Columbia and Maryland require that Medicaid beneficiaries be residents.
We recommended that the State
agency work with the Maryland Medicaid agency to share available Medicaid
eligibility information for use in: determining accurate beneficiary eligibility
status, and reducing the amount of payments, estimated to be $1,902,080
($1,331,456 Federal share), made on behalf of beneficiaries residing in
Maryland.  We also recommended that the State agency: determine the place of
residence associated with beneficiaries who received services totaling
$3,944,006 (Federal share $2,760,805), but whose residency could not be
established, and verify addresses of all beneficiaries including those on
Supplemental Security Income and children.   In a letter the State agency
advised us of actions it was taking to implement our recommendations.